July 16, 2020
ALD-254
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-1654
NAFIS ANTUAN FAISON, Appellant
v.
SUPERINTENDENT SMITHFIELD SCI; ET-AL.
(M.D. Pa. Civ. No. l-18-cv-02440)
Present:

MCKEE, SHWARTZ and PHIPPS, Circuit Judges
Submitted are:
(1)

Appellant’s request for a certificate of appealability .under 28 U.S.C.
§ 2253(c)(1); and

(2)

Appellant’s motion to attach an exhibit to his request for a certificate
of appealability

in the above-captioned case.
Respectfully,

Clerk
ORDER
Faison’s motion to attach an exhibit to his request for a certificate of appealability
is granted. His request for a certificate of appealability is denied. See .28 U.S.C.
§ 2253(c). For substantially the reasons that the District Court provided, jurists of reason
would agree without debate that counsel did not perform ineffectively by failing to file a
motion to suppress because-such a motion would-haveJailed—See.MillerrELv. Cockrell,_
537 U.S. 322, 327 (2003); Kimmelman y, Morrison. 477 U.S. 365, 382-83 (1986). More
specifically, jurists of reason would agree that “the magistrate had a substantial basis for
concluding that probable cause existed” to permit the police to acquire location
information from Faison’s phone. Illinois v. Gates. 462 U.S. 213, 238—39 (1983); see

generally United States v. Brown. 448 F.3d 239, 249-50 (3d Cir. 2006k United States v,
Williams, 3 F.3d 69, 72 (3d Cir. 1993). Jurists of reason would likewise agree that the
police were permitted to make a warrantless entry into the apartment to execute the arrest
warrant, see United States v. Aenew. 407 F.3d 193, 196-97- (3d Cir. 2005), and, once
inside, perform a protective sweep, see Buie v. Maryland, 494 U.S. 325, 337 (1990).
Jurists of reason would likewise agree that the magistrate had a substantial basis for
issuing the search warrant See Gates. 462 U.S. at 238-39.> Finally, while Faison objects
to the fact that police reentered the home while awaiting issuance of the search warrant,
even setting aside his potential procedural default of this claim, see 28 U.S.C.
§ 2254(b)(2), jurists of reason would agree without debate that the contraband was seized
pursuant to an “independent source”—that is, the search warrant that did not rely on this
subsequent entry, see Murray v. United States. 487 U.S. 533, 537 (1988). Jurists of
reason would therefore agree without debate that counsel did not perform ineffectively by
failing to raise these, claims. See Miller-El. 537 U.S. at 327.

By.the Court,

s/ Peter J. Phipps
Circuit Judge
Dated: August 12, 2020
CJG/cc:
Kenneth A. Osokow, Esq.
Ronald Eisenberg, Esq.
Nafis Antuan Faison
A True Copyf0

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
NAFIS ANTUAN FAISON,
Petitioner,
No. l:18-cv-2440
v.
JAMEY LUTHER, et al,
Respondents

(Judge Rambo)
(Magistrate Judge Mehalchick)
MEMORANDUM

Before the Court are pro se Petitioner Nafis Antuan Faison (“Petitioner”)’s
petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254 (Doc. No. 1),
motion to compel discovery (Doc. No. 7), and motion for clarification/status of case
(Doc. No. 8), Magistrate Judge, Mehalchick’s October 31, 2019 Report and
Recommendation (Doc. No. 22) recommending that Petitioner’s § 2254 petition be
denied and that his motions be dismissed as moot, and Petitioner’s objections (Doc.
No. 23) to the Report and Recommendation. For the following reasons, the Court
will overrule Petitioner’s objections, adopt the Report and Recommendation, deny
his § 2254 petition, and dismiss as moot his remaining motions.
I.

BACKGROUND
. Petitioner was tried. and convicted in the Court of Common Pleas for

Lycoming County of two (2) misdemeanor counts of possession of a controlled
substance, one misdemeanor count of possession of drug paraphernalia, one
misdemeanor count of possession of a small amount of marijuana, and one felony

count of possession of a controlled substance with intent to deliver. The factual
background of this case has been set forth at length by Magistrate Judge Mehalchick
in her Report and Recommendation and, therefore, will not be repeated herein. (Doc.
No. 22 at 2-8.) Petitioner was sentenced to a total of five (5) to ten (10) years’
incarceration. His convictions and sentence were upheld on both direct and post­
conviction review in the Pennsylvania state courts.
In his § 2254 petition, Petitioner raises the following claims for relief:'
1.

The PCRA Court’s conclusion that probable cause existed to support
. the authorization of the disclosure of [Petitioner’s] cell phone data was
clearly erroneous, thus [Petitioner] was denied effective assistance of
- counsel where.trial counsel.failed to file a motion to suppress evidence
gleaned from [Petitioner’s] cell phone data;
,r

2.

The PCRA Court’s conclusion that police had the. right to enter
.. Simpson’s.apartment and perform a protective sweep without a search
warrant was clearly erroneous, thus [Petitioner] was denied effective.
. assistance of counsel where trial counsel failed to file a motion to
suppress evidence seized form the apartment;

3.

The PCRA Court’s conclusion that [Petitioner] failed to establish any
significant or material misstatement in the affidavit of probable cause
in support of the search warrant on Simpson’s apartment was-clearly
erroneous, and that his trial counsel was ineffective for failing to
investigate Simpson. [Petitioner] alleges that an investigation would
have brought to light false averments contained in the affidavit of
- probable cause in supportofhis arrest warrant, thus.the affidavit should
have been suppressed; -and— —----- ----------- -— ------————

4. ., Trial counsel was ineffective for failing to-attempt to suppress evidence
obtained, when police, reentered Simpson’s apartment without a
warrant, and after conducting a protective sweep.

2.

(Doc. No. 22 at 8.)

In her Report and Recommendation, Magistrate Judge

Mehalchick recommends that Ground Four be dismissed as procedurally defaulted
“without justifiable cause to excuse such procedural default” (Doc. No. 22 at 1121.). She recommended further that Petitioner’s remaining grounds be dismissed as
meritless, a., certificate, .of appealability not issue, and that Petitioner’s pending
motions be dismissed, as moot. {Id; at 21-30.) t
In his- objections, Petitioner. challenges Magistrate Judge Mehalchick’s
recommendations regarding Grounds Four and One in his § 2254 petition. (Doc.
- .v..

.

.

• i (r. •

No. 23.) With respect to Ground Four, Petitioner objects to Magistrate Judge
Mehalchick’s conclusion “that this claim was not fairly presented to the
Pennsylvania state court.” {Id. at 1,) He claims further that Magistrate Judge
Mehalchick incorrectly concluded that liis reasonable expectation' of privacy in the
dwelling, where he was an overnight guest dissolved when he fled the apartment.
{Id: at 1-3.) With respect to Ground Qne, Petitioner argues that Magistrate Judge
Mehalchick unreasonably applied Illinois v.. Gates, 46t2 U.S. 213 (1983) and also

1 Magistrate Judge Mehalchick also noted that Petitioner included a fifth ground for relief in his
§ 2254 petition, which was written on the back of the petition and inadvertently not scanned when
the § 2254 petition was filed. (Doc. No. 22 at 21 n.22.) This claim was that “trail counsel was
ineffective for not consulting with [Petitioner] about filing the motions to suppress evidence which
are addressed herein.” {Id.) Magistrate Judge Mehalchick concluded that because the motions to
suppress would have been meritless, counsel could not be ineffective for failing to so consult, and
therefore, the claim should be dismissed. {Id.) Petitioner has not challenged this recommendation
in his objections. Accordingly, the Court will adopt the Report and Recommendation with respect
—to this fifth ground for relief.
- - ........... .................
3

unreasonably applied the facts. (Id. at 4.) Specifically, Petitioner maintains that
affiant who prepared the affidavit of probable cause to issue a trace and tracking
device for his cell phone did not corroborate the information provided by a parolee.
(Id. at 4-5.)
H.

LEGAL STANDARD

. ■' . When objections are timely ‘filed to a rhagistrate judge’s report and
recommendation, the district court must review

novo those portions of the report

.to which objections are made. 28 U.S.G. § 636(c); Brown v. Astrue, 649 F.3d 193,
195 (3d Gir;t-2011)-. Although the standard is de novo, the extent of review is
.committed to the sound’discretion of the district judge, and tbe court may rely on the
recommendations of the magistrate judge to the extent it deems proper. Rieder v.
Apfel, 115 F. Supp. 2d 496, 499 (M.D. Pa. 2000) (citing United States v. Raddatz,
447 U.S. 667, 676 (1980)).
. For those sections of the report and recommendation to which no objection is
made, the court should, as a matter .of good practice, “satisfy itself that there is no
clear error on the face of the record.in order to accept the recommendation.” Fed.
R. Civ. P. 72(b), advisory committee notes; see also Univac Dental Co. v. Dentsply
Intern., Inc., 702 F. Supp. 2d 465, 469 (M.D. Pa.. 2010) (citation omitted).
Nonetheless, whether timely objections are. made or not, the district court may

—V

A

accept, not accept, or modify, in whole or in part, the findings or recommendations
made by the magistrate judge. 28 U.S.C. § 636(b)(1); Local Rule 72.31.
in.

DISCUSSION
As noted supra, Petitioner only objects to Magistrate Judge Mehalchick’s

recommendation to dismiss Grounds Four and One set forth in his § 2254 petition.
He dpes.not challenge her recommendations concerning Grounds Two ,and Three.
Following an independent review of the record, -the;Court is satisfied that-the Report
and Recommendation contains no clear error with respect to Grounds Two and
Three. .Accordingly,,the Court will adopt the Report and Recommendation with
respect to these grounds for relief.
A.

-•

Ground Four

......
i.

With respect to Ground Four, Petitioner avers that Magistrate Judge
Mehalchick erroneously concluded that his claim was not fairly presented to the
Pennsylvania state courts when, he had raised it in his supplemental PCRA petition.
(Doc. No; 23 at 1.) -Petitioner maintains further .that Magistrate Judge Mehalchick
concluded that the.procedural default of .Petitioner’s-'claim should not be excused
because any expectation of privacy he had. in the apartment dissolved when he fled
and was subsequently arrested.' (Id. at 2-3.)

:

In support of his claim, Petitioner cites Payton v'.' New York, 445. U.S. 573
(1980). (Doc. No. 23 at 2-3.) In Payton, the Supreme Court concluded that “an
,5_

■h

arrest warrant founded on probable cause implicitly carries with it the limited
authority to enter a dwelling in which the suspect lives when there is reason to
believe the suspect is within.” 445 U.S. at 603. Petitioner avers that pursuant to
Payton, the police did not have authority to re-enter die apartment, and conduct a
search.' (Doc: No. 23 at 3.) Upon revieW of the record, however, theGourt concludes
that Magistrate'Judge Mehalchick correctly concluded that Petitioner’s.procedural
default of Grohnd Four should - not be excused: She correctly noted that , as an
overnight guest, Petitioner enjoyed a “legitimate expectation of privacy for as long
as [he was] in the [apartment].” UnitedStates v. Pettiway, 429 F. App’x 132,135
(3d Cir. 2011) (citing Minnesota v. Olson, 495 U.S; 91, 98-99 (1990)). That
expectation, however, “fails when the overnight guest departs the home.” Id As
Magistrate Judge Mehalchick correctly noted, Petitioner left the apartment and was
arrested before police're-entered it. Accordingly, because Petitioner was not present
when the re-entry occurred, he would have lacked standing to .challenge the.re-entry
and subsequent search. See United States v. Harris, 884 F.1 Supp. 2d 383* 390 n.5
(W.D. Pa. 2012). Accordingly, Petitioner’s objection will be overruled, and the
Court will adopt Magistrate Judge Mehalchick’s Report and Recommendation with
respect to Ground Four.

6.

B.

Ground One

With respect to Ground One, Petitioner maintains that Magistrate Judge
Mehalchick unreasonably applied Illinois v. Gates■, 462 U.S. 213 (1983) and
unreasonably applied the facts. (Doc. No. 23,at 4.) Petitionenasserts that the affiant
who prepared the affidavit of probable cause to issue a trace and tracking device for
Petitioner’s cellphone;never .corroborated the .information provided by. parolee
Steven Williams. {Id.) in making: these arguments, Petitioner essentially reiterates
■

•

'

— i.

the arguments previously advanced in ;his traverse. .Having considered this
challenge, the Court concludes that Magistrate; Judge Mehalchick correctly and
'a.

1

'

,

comprehensively addressed; the substance of this objection in her Report and
Recommendation. Accordingly, Petitioner’s second objection will be overruled.
TV.

CONCLUSION

■r Tor the foregoing reasons,, the Court will overrule -Petitioner’s objections
(Doc. No. 23) and adopt the Report and Recommendation (Doc. No. 22). The Court
will, therefore, deny Petitioner’s § 2254 petition (Doc. No. 1) and dismiss as moot
his remaining motions (Doc. Nos. .7, 8).- An appropriate Order follows.
/ . ■ '. - s/ SvlviaH. Rambo
-------- United-States District-Judge
Dated: March 12,2020

7-

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF PENNSYLVANIA
NAFIS ANTUAN FAISON
Petitioner,
v.

CIVIL ACTION NO. 1:18-CV-02440
(RAMBO, J.)
(MEHALCHICK, M J.)

JAMES LUTHER, Superintendent, et al.
Respondents.

REPORT AND RECOMMENDATION
In January 2015, Petitioner Nafis Faison (“Faison”), was convicted in the Lycoming
County Court of Common Pleas of two misdemeanor counts of possession of a controlled
substance, one misdemeanor count of possession of drug paraphernalia, one misdemeanor
count of possession of a small amount of marijuana, and one felony count of possession with
intent to deliver. Faison now brings this petition for writ of habeas corpus pursuant to 28
U.S.C. § 2254, asking this Court to set aside that conviction as it violates his rights guaranteed
under the United States Constitution, and to grant him a new trial.1 In particular, Faison
argues that he was deprived of his Sixth Amendment right to effective assistance of counsel.
Having been fully briefed (Doc. 1; Doc. 19; Doc. 20), Faison’s § 2254 petition is now
ripe for review.

Faison also request an evidentiary hearing in the matter, as well as appointment of
counsel.

Background and Procedural History
In his petition, Lee challenges his January 21, 2015, judgment of sentence entered in
the Court of Common Pleas of Lycoming County, sentencing him to a total of 5-10 years in
prison.2 (Doc. 1, at 1). On January 21, 2015, a jury found Faison guilty of four drug related
offenses, including possession with intent to deliver a controlled substance,3 two counts of
possession of a controlled substance,4 possession of drug paraphernalia,5 and possession of
marijuana - small amount for personal use.6 (Doc. 19-1, at 12).
The Superior Court, on PCRA appeal, summarized the facts of the case as follows
(Doc. 19-2, at 73). In November 2013, the Lycoming County Court of Common Pleas,
following an application and affidavit of probable cause, issued an order authorizing the
disclosure of tracking data on Faison’s cell phone number. In the affidavit of probable cause
a member of the Pennsylvania State Police stated that a warrant existed for Faison’s arrest on
drug charges, and that attempts to locate him had been unsuccessful. The Trooper also stated
that a confidential informant had made four controlled buys from Faison, whom his

2 In addition to the petition, a federal habeas court may take judicial notice of state
court records. Minney v. Winstead, No. 2:12-CV-1732, 2013 WL 3279793, at *2 (W.D. Pa.
June 27, 2013); see also Reynolds v. Ellingsworth, 843 F,2d 712, 714 n.l (3d Cir. 1988).
Accordingly, in reviewing this petition, the Court takes judicial notice of the publiclyavailable dockets of Faison’s criminal and collateral post-conviction proceedings in the Court
of Common Pleas of Lycoming County, and the Superior Court of Pennsylvania. See e.g.
Commonwealth v. Faison, No. MJ-29101-CR-514-2013 (Lycoming Cnty. C.C.P.);
Commonwealth v. Faison, No. CP-41-CR-126-2014 (Lycoming Cnty. C.C.P.); Commonwealth v.
Faison, No. 2037 MDA 2015 (Pa. Super. 2016); Commonwealth v. Faison, 1423 MDA 2017
(Pa. Super. 2018); Commonwealth v. Faison, 1982 MDA 2017 (Pa. Super. 2018).
3 35 Pa.C.S. § 780-113(a)(30).
4 35 Pa.C.S. § 780-113(a)(16).
5 35 Pa.C.S. § 780-113(a)(32).
6 35 Pa.C.S. § 780-113(a)(31)(i).
2

customers called “Mickey.” The affidavit asserted that Faison could be located using the data
from a telephone number that a parolee had provided to a parole agent.
The court issued the order authorizing disclosure of Faison’s cellular data, and police
determined that Faison was located at a particular residence in Williamsport, Pennsylvania.
On December 12, 2013, law enforcement began surveilling the residence and observed several
people visit the second-floor apartment and stay for a short period of time. As one of these
people was leaving, police stopped and frisked him, and found a small amount of illegal drugs.
During the arrest, this person told police that he had seen Faison inside the building’s secondfloor apartment. Soon thereafter, police spotted Faison standing outside the door to a thirdfloor apartment. Trial testimony later established that Faison’s friend, Demetrius Simpson
, (“Simpson”), had allowed Faison to stay in the apartment overnight.
Later that evening, police approached the second-floor apartment and knocked on the
door. As this happened, an unidentified individual, later identified as Faison, jumped out of
a second-floor window and fled on foot. Police then entered and secured the apartment. While
police were in a central room of the apartment, they observed an un-zipped backpack
containing what appeared to be bags of cocaine.
I

Faison was soon caught by police, who found nearly $4,000 in cash and a small
amount of illegal drugs on his person. Police filed for a search warrant of Simpson s

I apartment, and while they were waiting, took Simpson’s nine-year-old son inside to retrieve
warm clothing. In the process of retrieving the clothing, another trooper, Trooper Fishel, also
saw the un-zipped backpack containing bags of cocaine.
The search warrant was granted, and police searched the apartment. They recovered
the backpack which contained over 500 grams of cocaine and a scale; a box in a closet which
3

contained rubber bands, small plastic bags, a stamp pad, and a brown piece of paper with
heroin residue on it; and a tan jacket with a bag of cocaine in its right pocket.
Police charged Faison with possession with intent to deliver a controlled substance, as
well as other related drug offenses. Faison did not file any pre-trial motions to suppress
evidence, and at the conclusion of the trial, a jury found him guilty and sentenced him to an
aggregate of five to ten years incarceration. (Doc. 19-2, at 73).
After the guilty verdict, Faison filed post-sentence motions arguing lack of sufficient
evidence and a verdict rendered contrary to the weight of the evidence. The court of common
pleas denied these motions on July 10, 2015. (Doc. 19-1, at 17). Faison did not file a direct
appeal. (Doc. 19, at 7).
On September 11, 2015, Faison filed a Post-Conviction Relief Act (PCRA) petition,
followed by an amended PCRA petition on October 7, 2015, requesting reinstatement of his
right to file a direct appeal with the Superior Court of Pennsylvania. (Doc. 19-1, at 37). This
petition was granted, and Attorney Joshua Bower (“Attorney Bower ) of the Lycoming
County Public Defender’s Office was reappointed to represent Faison. (Doc. 19-1, at 45).
On direct appeal, Faison, through Attorney Bower, presented the following claims to
the Pennsylvania Superior Court:
1.

Whether the Commonwealth failed to introduce sufficient evidence
that [Appellant] constructively possessed the cocaine found in
another’s residence[?]

2.

Whether the verdict rendered by the jury was contrary to the weight
of the evidence presented at trialp]
(Doc. 19-1, at 49).

4

The Superior Court affirmed Faison’s judgement of sentence on May 17, 2016. As to
the first issue, the court determined “there was ample evidence indicating Appellant’s
involvement in drug activity and connecting him to the specific room or areas where the drugs
were kept.” (Doc. 19-1, at 53). As to the second issue, “the evidence plainly reflected that the
cocaine was in the area of the Apartment where Appellant stayed, in and next to his personal
possessions, and that he fled from police with drugs and a significant amount of cash on his
person,” thus the trial court did not “palpably” abuse its discretion by denying Faison’s claim
of a verdict contrary to the weight of the evidence. (Doc. 19-1, at 54). The Supreme Court of
Pennsylvania denied Faison’s petition for allowance of appeal on October 25, 2016. (Doc. 192, at 1)
Upon the conclusion of direct review, Faison filed a pro se petition for collateral relief
under the Pennsylvania Post-Conviction Relief Act (“PCRA”), 42 Pa.C.S.A. § 9541 etseq., in
the Court of Common Pleas of Lycoming County on December 1, 2016.7 (Doc. 19-2, at 2).
Faison’s PCRA petition asserted that his counsel at trial was ineffective for failing to file
motions to suppress that would have changed the verdict. (Doc. 19-2, at 2). The grounds
stated for these motions to suppress were that the affidavit of probable cause giving the
authority to install and use a pen register and trap and trace device on his telephone was
wholly lacking probable cause existed; that the police had “no business” searching a third
party’s home (where Faison was an overnight guest) without a search warrant; and the

7 The PCRA Court appointed attorney Ryan Gardner (“Attorney Gardner”) as
Faison’s PCRA Counsel, but Attorney Gardner subsequently filed a “No Merit Letter”
pursuant to Commonwealth Finley, 550 A.2d 213 (1998) asking to withdraw, which was
granted by the PCRA Court on June 22, 2017. (Doc. 19-2, at 48; Doc. 19-2, at 56).
5

affidavit [of probable cause] contained misstatements material to the probable cause
determination. (Doc. 19-2, at 2).
Faison also submitted that his trial counsel was ineffective for failing to investigate the
owner of the apartment where the cocaine was found and who testified against Faison at trial.
(Doc. 19-2, at 2). The PCRA court declared that this claim was waived due to his failure to
develop that claim or allege how it related to the failure to file a motion to suppress. (Doc. 192, at 56).
On June 22, 2017, the PCRA court notified Faison of its intent to dismiss his PCRA
petition due to his claims lacking merit. (Doc. 19-2, at 56). The court gave Faison twenty days
to object to its decision. (Doc. 19-2, at 56). Faison did not object, and the Court formally
ordered his petition dismissed on July 13, 2017. (Doc. 19-2, at 65). On October 20, 2017, the
PCRA court issued a supplemental opinion clarifying that it concluded that Faison directed
his trial attorney not to file pre-trial motions — including motions to suppress — in order to
focus on relief through Rule 600,8 and that he should not be permitted to now seek the relief
he consciously chose to forego. (Doc. 19-2, at 67).
Faison appealed the order denying him relief under the PCRA to the Superior Court
of Pennsylvania, alleging (1) that trial counsel had no reasonable bases for its inactions; (2)
deficient performance on the part of trial counsel for failing to file a motion to suppress
evidence where the affidavit of probable cause to obtain a pen register and trace device was
insufficient; (3) deficient performance on the part of trial counsel for failing to file a motion

8 Rule 600 dictates that criminal defendants are not to be held in pre-trial incarceration
for more than 180 days, and that trials are to be commenced within 365 days. Pa. R. Crim.
P. 600(A), (B).
6

to suppress evidence seized in the apartment as a result of an illegal search without a warrant;
and (4) deficient performance on the part of trial counsel for failing to file a motion to suppress
the affidavit of probable cause to search due to false averments contained within. (Doc. 19-2,
at 77).
The Superior Court initially explained that the PCRA court was correct in finding that
Faison waived any post-conviction attempt to suppress evidence by failing to bring pre-trial
motions to suppress, but that he could still bring a claim that his trial counsel was ineffective
for failing to file pre-trial motions to suppress. (Doc. 19-2, at 79). Therefore, the Superior
Court went on to address Faison’s ineffectiveness claims.
The Superior Court upheld the PCRA court’s decision, finding (1) that the PCRA
court had a substantial basis to find probable cause existed to support the authorization of the
disclosure of Faison’s cell phone data; (2) that after observing an unidentified fleeing
individual and in possession of an arrest warrant, police had the right to enter Simpson’s
apartment and perform a protective sweep; and (3) that Faison failed to establish any
significant or material misstatement in the affidavit of probable cause in support of the search
warrant on Simpson’s apartment. (Doc. 19-2, at 73). The Superior Court concluded that
because Faison did not establish merit behind the motions to suppress, the PCRA court was
correct in not finding trial counsel ineffective for failing to file suppression motions on those
grounds. (Doc. 19-2, at 73). The Superior Court entered its order on December 3, 2018. (Doc.
19-2, at 90).
On December 27, 2018, having exhausted his direct appeal and PCRA remedies,
Faison filed the instant Petition for habeas corpus. (Doc. 1). Respondent filed its Response to

7

Faison’s Petition on August 22, 2019, asserting that Faison’s claims either lack merit or are
orocedurally defaulted. (Doc. 19). Faison filed a Traverse on September 16, 2019. (Doc. 20).
Having been fully briefed, this petition is now ripe for disposition.
n.

Habeas Claims Presented
Faison presents the following grounds for relief in his federal habeas Petition:
1)

That the PCRA Court’s conclusion that probable cause existed to
support the authorization of the disclosure of Faison’s cell phone
data was clearly erroneous, thus Faison was denied effective
assistance of counsel where trial counsel failed to file a motion to
suppress evidence gleaned from Faison’s cell phone data (Doc. 1, at
5);

2)

That the PCRA Court’s conclusion that police had the right to enter
Simpson’s apartment and perform a protective sweep without a
search warrant was clearly erroneous, thus Faison was denied
effective assistance of counsel where trial counsel failed to file a
motion to suppress evidence seized from the apartment (Doc. 1, at
6);

3)

That the PCRA Court’s conclusion that Faison failed to establish
any significant or material misstatement in the affidavit of probable
cause in support of the search warrant on Simpson’s apartment was
clearly erroneous, and that his trial counsel was ineffective for failing
to investigate Simpson. Faison alleges that an investigation would
have brought to light false averments contained in the affidavit of
probable cause in support of his arrest warrant, thus the affidavit
should have been suppressed. (Doc. 1, at 8); and

4)

That his trial counsel was ineffective for failing to attempt to
suppress evidence obtained when police reentered Simpson’s
apartment without a warrant, and after conducting a protective
sweep. (Doc. 1, at 9).

The Court addresses each of these grounds for relief in turn.9

9 The Court notes that Faison included a fifth ground for relief in his Petition, noted
that it was on the “back page” of page 10 of his petition (Doc. 1, at 10), and which for
unknown reasons, was not originally scanned into ECF. This page has now been scanned and
is docketed at Doc. 1-1. This ground was not mentioned again by Faison, either elsewhere in
his Petition or in his Traverse, and was not briefed or argued in any way by Respondents. The
8

m.

Discussion
A. Habeas Relief under 28 U.S.C. $ 2254
Faison brings his Petition pursuant to 28 U.S.C. § 2254,10 which permits federal courts

to issue habeas corpus relief for persons in state custody. While a prisoner may properly
challenge the “fact or duration” of his confinement through a § 2254 petition, see Preiser v.
Rodriguez, 411 U.S. 475 498-99 (1973), the statute sets “several limits on the power of a federal
court to grant an application for a writ of habeas corpus on behalf of a state prisoner.” Cullen
v. Pinholster, 563 U.S. 1.70,181 (2011). Further, “it is not the province of a federal habeas court
to reexamine state-court determinations on state-law questions.” Estelle v. McGuire, 502 U.S.
62, 67-68 (1991); see also Pulley v. Harris, 465 U.S. 37, 41 (1984) (“A federal court may not
issue the writ on the basis of a perceived error of state law.”); Engle v. Isaac, 456 U.S. 107, 120
n.19 (1982) (“If a state prisoner alleges no deprivation of a federal right, § 2254 is simply
inapplicable.”). Rather, federal habeas review is limited to claims based “on the ground that
I [petitioner] is in custody in violation of the Constitution or laws or treaties of the United
States.” 28 U.S.C. § 2254(a); Estelle, 502 U.S. at 68. As such, a writ of habeas corpus is an
‘“extraordinary remedy’ reserved for defendants who were ‘grievously wronged’ by the

claim, that trial counsel was ineffective for not consulting with Faison about filing the motions
to suppress evidence otherwise addressed herein, and as further discussed tnfra, is without
merit, as the motions to suppress would have been meritless. SeeHartey v. Vaughn, 186 F.3d
367, 372 (3d Cir. 3 999) (explaining that counsel cannot be deemed ineffective for not pursuing
a meritless claim). Accordingly, the Court respectfully recommends this claim be
DISMISSED.
10 Faison’s § 2254 petition is governed by the Antiterrorism and Effective Death
Penalty Act of 1996 (“AEDPA”).
9

criminal proceedings.” See Dunn v. Colleran, 247 F.3d 450, 468 (3d Cir. 2001) (quoting
Calderon v. Coleman, 525 U.S. 141, 146 (1998)).
The statutory text of § 2254 additionally requires that federal courts give the
appropriate deference to the legal rulings and factual findings of state courts made during
criminal proceedings, and provides in pertinent part:
An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect to
any claim that was adjudicated on the merits in State court proceedings unless
the adjudication of the claim (1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme
Court of the United States .11 12 or
(2) resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceeding.
28 U.S.C.§ 2254(d).
Thus, given these deferential standards of review, federal courts frequently decline invitations
by habeas petitioners to disturb the considered views of state courts. See Rice v. Collins, 546
U.S. 333, 338-39 (2006)\see also Warren v. Kyler, 422F.3d 132, 139-40 (3d Cir. 2006); Gattisv.
Snyder, 278 F.3d 222, 228 (3d Cir. 2002).

]1 A state court decision is “contrary” to clearly established federal law if “the state
court arrives at a conclusion opposite to that reached by th[e Supreme] Court on a question
of law or if the state court decides a case differently than th[e Supreme] Court has on a set of
materially indistinguishable facts.” Williams, 529 U.S. at 413.
12 A state court decision is an “unreasonable application” of clearly established federal
law if “(1) ‘the state court identifies the correct governing legal rule from [the] Court's cases
but unreasonably applies it to the facts of the particular ... case;’ or (2) the state court either
unreasonably extends a legal principle from our precedent to a new context where it should
not apply or unreasonably refuses to extend that principle to a new context where it should
apply.”’ Appelv. Horn, 250 F.3d 203, 209 (3d Cir. 2001) (quoting Williams, 529 U.S. at 407).
10

Nonetheless, with respect to § 2254(d)(1), the Supreme Court defines “clearly
established federal law” as “holdings, as opposed to the dicta, of [the Supreme] Court's
decisions as of the time of the relevant state-court decision.” Williams v. Taylor, 529 U.S. 362,
412 (2000). Further, to warrant relief under § 2254(d)(1), a state court’s “unreasonable
application of those holdings must be objectively unreasonable, not merely wrong; even clear
error will not suffice.” White v. Woodall, 134 S. Ct. 1697, 1702 (2014). Regarding 28 U.S.C.
§ 2254(d)(2), “a determination of a factual issue made by a State court shall be presumed to
be correct” unless a petitioner can show, by clear and convincing evidence, that the finding
was erroneous. 28 U.S.C. § 2254(e)(1); see also Simmons v. Beard, 590 F.3d 223, 231 (3d Cir.
2009) (“Under the § 2254 standard, a district court is bound to presume that the state court's
factual findings are correct, with the burden on the petitioner to rebut those findings by clear
j and convincing evidence.”). Moreover, habeas relief will not be granted pursuant to §
2254(d)(2) if a reasonable basis existed for the state court to make its factual finding. See Burt
Titlow, 571 U.S. 12, 18 (2013).
B. Exhaustion and Procedural Default
Respondent submits that one of Faison’s claims is procedurally defaulted, and thus
barred from habeas review. (Doc. 19, at 13). Generally, a federal district court may not
consider the merits of a habeas petition unless the petitioner has “exhausted the remedies
available” in state court. See 28 U.S.C. § 2254(b)(1)(A); O'Sullivan v. Boerckel, 526 U.S. 838,
842 (1999). “The exhaustion requirement is satisfied only if the petitioner can show that he
fairly presented the federal claim at each level of the established state-court system for
review.” Holloway v. Horn, 355 F.3d 707, 714 (3d Cir. 2004); see also O Sullivan, 526 U.S. at
845 (“ [T]he exhaustion doctrine is designed to give the state courts a full and fair opportunity
11

to resolve federal constitutional claims before those claims are presented to the federal
courts ... by invoking one complete round of the State's established appellate review
process.”). The United States Court of Appeals for the Third Circuit has further explained
that, to “fairly present” a claim for exhaustion purposes, the petitioner must advance “a
federal claim’s factual and legal substance to the state courts in a manner that puts them on
notice that a federal claim is being asserted.” Bennett v. Superintendent Graterford SCI, 886 F.3d
268, 280 (3d Cir. 2018) (quoting McCandless v. Vaughn, 172 F.3d 255, 261 (3d Cir. 1999)).
Such notice may be conveyed through a petitioner’s:
“(a) reliance on pertinent federal cases employing constitutional analysis, (b)
reliance on state cases employing constitutional analysis in like fact situations,
(c) assertion of the claim in terms so particular as to call to mind a specific right
protected by the Constitution, and (d) allegation of a pattern of facts that is well
within the mainstream of constitutional litigation.”
McCandless v. Vaughn, 172F.3d255, 261-62 (3d Cir. 1999) (citing Evans v.
Court of Common Pleas, Del. County, Pa., 959 F.2d 1227 (3d Cir. 1992))
Exhaustion under the AEDPA also “turns on an inquiry into what procedures are
‘available’ under state law.” O'Sullivan, 526 U.S. at 847. In Pennsylvania, a federal claim is
deemed exhausted once it is presented to the Superior Court of Pennsylvania-

ither on direct

appeal from a state criminal conviction or on appeal from a PCRA court's denial of post­
conviction relief—because the Pennsylvania Supreme Court is not considered an “available”
state court remedy. See Lambertv. Blackwell, 387 F.3d 210,233 (3d Cir. 2004) (declaring review
from the Pennsylvania Supreme Court to be “unavailable” for purposes of exhausting state
court remedies). However, “a claim will be deemed unexhausted if the petitioner has the
right under the law of the State to raise, by any available procedure, the question presented,’
but has failed to do so.” Wilkerson v. Superintendent Fayette SCI, 871 F.3d 221, 227 (3d Cir.
12

2017), cert, denied sub nom. Wilkersonv. Lane, 138S. Ct. 1170, 200 L. Ed. 2d 319 (2018) (citing
28 U.S.C.§ 2254(c)).
On the other hand, “[w]hen a claim is not exhausted because it has not been ‘fairly
presented’ to the state courts, but state procedural rules bar the applicant from seeking further
relief in state courts, the exhaustion requirement is satisfied because there is ‘an absence of
available State corrective process.’” McCandless, 172 F.3d at 260 (quoting 28 U.S.C. §
2254(b)(1)(B)®); see also Coleman v. Thompson, 501 U.S. 722, 732 (1991) (“A habeas petitioner
who has defaulted his federal claims in state court meets the technical requirements for
exhaustion; there are no state remedies any longer ‘available’ to him.”). In such situations, a
claim is deemed ‘‘procedurally defaulted,13 not unexhausted, and ... may be entertained in a
| federal habeas petition only if there is a basis for excusing the procedural default.” Wenger v.
Frank, 266 F.3d218, 223-24 (3d Cir. 2001); see also Lines v. Larkins, 208 F.3d 153,160 (3d Cir.
2000); Wilkerson, 871 F=3d at 228 (“If a petitioner's federal claim was not ‘fairly presented,’
and further state-court review is no longer available under state law, the claim is procedurally
defaulted’ ...”) (quotations omitted). Specifically, procedural default may be excused if a
I petitioner can demonstrate “cause” for the defaulted claim, and “prejudice therefrom,” or that
a “failure to review his federal claim will result in a fundamental miscarriage of justice.
Edwards v. Carpenter, 529 U.S. 446, 451 (2000); see also Coleman, 501 U.S. at 750.

The doctrine of procedural default prohibits federal courts from reviewing a state
court decision involving a federal question if the state court decision is based on a rule of state
law that is independent of the federal question and adequate to support the judgment.” Bennett
v. Superintendent Graterford SCI, 886 F.3d 268, 281 (3d Cir. 2018) (citing Bey v. Superintendent,
856 F.3d 230, 236 (3d Cir. 2017)).
13 u

13

Respondent avers that Faison’s fourth ground for relief - that trial counsel was
ineffective for failing to file a motion to suppress evidence found when an officer reentered
Simpson’s apartment after conducting a protective sweep and without a search warrant - is
orocedurally defaulted, and thus ineligible for federal habeas review. (Doc. 19, at 13). In
particular, Respondent asserts that Faison failed to present this issue in his PCRA petition,
and that the Superior Court found the issue waived, and further, that Faison has failed to
demonstrate any cause and prejudice that would excuse his procedural default of these claims.
(Doc. 19, at 13).
In his petition, Faison asserts that: “Trial counsel was ineffective for failing to file a
motion to suppress evidence obtained in [Simpson’s apartment] where apartment was already
secured from “protective sweep” and police went back into apartment without warrant and
searched and found drugs.” (Doc. 1, at 10); (Doc. 19, at 13). Faison expands on this claim by
describing that Trooper Thomas, after the premises had been secured, re-entered and searched
the apartment. It was then that he discovered the backpack containing cocaine. “Trooper
Thomas nor the police had a search warrant to search Simpson (third party) apartment.”
(Doc. 1, at 10). The Superior Court did not address this claim, finding that Faison had.not
included it in his PCRA petition, so had waived it. (Doc. 19, Ex. 15, at 16). As such,
Respondent now asserts that this claim is procedurally defaulted.
Faison submits that he did raise this issue via a supplemental PCRA petition filed May
15, 2017. (Doc. 20, at IS). He states that the PCRA court addressed this claim (denying it) in
its October 20, 2017, opinion. (Doc. 20, at IS). Therefore, the claim was properly raised in

14

lis petition and the Pennsylvania Superior Court made an error of fact in declaring it waived
Decause of its absence from his petition. (Doc. 20, at 18).14
A review of the record before the Court does not reveal any point where Faison raises
this claim in a petition presented to the PCRA court. His supplemental PCRA petition filed
May 15, 2017, in which he claims he raised this issue, has not been submitted as an exhibit
and has not been made a part of the record. In its June 22, 2017, opinion, the PCRA court
mentions in a footnote that Faison filed a supplemental PCRA petition on May 15, 2017, and
that it “essentially raised the same issues” as his original. (Doc. 19-2, at 58). In his original
petition, Faison listed only three grounds for relief, and titled the only potential claim,

15 a

Trial

counsel was constitutionally defective for failing to investigate and file a motion to suppress
evidence seized in second floor apartment as it was procured as result of illegal search without
search warrant.” (Doc. 19-2, at 2). Faison’s argument for this claim centered around the police
entering Simpson’s apartment with only an arrest warrant after Faison - who the arrest
warrant was for - exited the building. (Doc. 19-2, at 2). This section was dominated by
whether it was proper for police to conduct a protective sweep in the first place. (Doc. 19-2,
at 2). At no point did Faison distinguish between the protective sweep, and the re-entry after
the protective sweep. (Doc. 19-2, at 2). Further, in his ‘Factual Background,’ Faison did not
mention police re-entering the apartment after the protective sweep. (Doc. 19-2, at 2). In its
supplemental opinion dated October 20, 2017, the PCRA court made mention of Trooper

14 Faison argues that if this claim was procedurally defaulted, that it should be excused
under Martinez v, Ryan, 566 U.S. 1 (2012) (holding that an attorney’s errors during a collateral
proceeding may excuse procedural default).
15 Faison’s other two claims centered around the state’s ability to obtain Faison's
phone records and alleged falsities in Faison’s arrest warrant. (Doc. 19-2, at 2).
15

Thomas re-entering the apartment after the apartment was secure. This was mentioned,
though, as part of its discussion of the need for a search warrant prior to police performing a
protective sweep, indicating that Faison did not raise the post-protective sweep entry as a
separate claim. (Doc. 19-2, at 67). Furthermore, it is not enough for the PCRA court to
mention the officer’s re-entry; Faison must have ‘fairly presented’ those facts along with the
accompanying legal argument to the PCRA court as part of an individual claim. See Holloway,
355 F.3d at 714.
Faison did not ‘fairly present' to the PCRA Court his claim of ineffective assistance of
counsel for failure to suppress evidence obtained from the post-protective-sweep-entry of
Simpson’s apartment. See Holloway, 355 F.3d at 714. To fairly present the claim, Faison must
have presented the factual and legal substance in a manner so as to put the state on notice. See
Holloway, 355 F.3d at 714. In his PCRA petition, Faison did not mention Trooper Thomas’s
name, did not describe police re-entering the apartment after the protective sweep in his
‘Factual Background,’ and did not distinguish his argument between the protective sweep
itself, and the re-entry after the protective sweep. (Doc. 19-2, at 2). In support of his argument
that he fairly presented the claim, Faison directs the Court to the PCRA court s June 22, 2017,
order mentioning that an amended PCRA petition had been filed, but that it raised essentially
the same issues’ as the original.16 (Doc. 20, at 18 n. 12). The facts and arguments Faison
alleged in his PCRA petition were insufficient to put the state on notice that he was
|| challenging the constitutionality of the re-entry of Simpson’s apartment after the protective
sweep. See Holloway, 355 F.3d at 714. The Superior Court was correct in finding that Faison

16 The undersigned is unable to consider the amended PCRA petition which Faison
refers to, as it has not been presented to the Court.
16

did not raise this claim in any of his PCRA petitions, and Faison bears the burden of rebutting
that finding with clear and convincing evidence. See Simmons, 590 F.3d at 231. Having
determined that Faison did not meet this burden, the Court finds that his claim of ineffective
assistance of counsel due to failure to suppress evidence obtained after the protective sweep
was not exhausted.
If Faison now attempted to present this unexhausted claim in state court, review would
no longer be available to him under Pennsylvania law.'7 As such, while the claim may be
technically exhausted, it is procedurally defaulted. See Coleman v. Thompson, 501 U.S. 722, 732
(1991); see also Wilkerson, 871 F.3d at 228; see also Bender v. Wynder, No. CIV A. 05-998, 2006
WL 1788350, at *11 (W.D. Pa. June 5, 2006), report and recommendation adopted, No. CIV A.
05-998, 2006 WL 1788312 (W.D. Pa. June 28, 2006) (“To the extent that [Petitioner] is
attempting to raise the purported constitutional violations that provide the basis for his
ineffective assistance of counsel claims as independent claims that entitle him to federal
habeas relief, those independent claims of constitutional error were not exhausted and are
therefore procedurally defaulted.”); Mattis v, Vaughn, 80 F. App’x 154, 157 (3d Cir. 2003)
(“[T]he underlying Brady claim in Maths's habeas petition was procedurally defaulted; he
did not present the claim to the Pennsylvania Supreme Court on direct appeal, and he no

1’Judgment becomes final at the conclusion of direct review which includes
discretionary review in the Supreme Court of the United States and the Supreme Court of
Pennsylvania, or at the expiration of the time for seeking that review. 42 Pa.C.S.A. §
9545(b)(3); Commonwealth v, Owens, 718 A.2d 330 (Pa. Super. Ct. 1998). Here, because
Faison’s conviction became final well over a year ago, any attempt to now go back and file a
new PCRA petition would be barred as untimely under 42 Pa.C.S.A. § 9545(b). Further,
Faison may also be barred from raising these unexhausted claims under the PCRA’ s waiver
provision. See 42 Pa.C.S.A. § 9544(b) (barring a petitioner from filing a claim under the PCRA
“if the petitioner could have raised it but failed to do so before trial, at trial, ... on appeal or in
a prior state postconviction proceeding.”).
17

onger has a state remedy available.”)- As mentioned supra, federal courts generally may not
consider the merits of procedurally defaulted claims unless the petitioner can demonstrate
either cause-8 for the procedural default and actual prejudice19 resulting therefrom, or that a
fundamental miscarriage of justice will result20 if the court does not review the
claims. See McCandless v. Vaughn, 172 F.3d 255, 260 (3d Cir. 1999); Coleman, 501 U.S. at 75051. Accordingly, the Court considers whether any basis exists to excuse Faison’s procedural
default. See Mala v. Crown Bay Marina, Inc., 704 F.3d 239, 244-46 (3d Cir. 2013) (noting a
court’s obligation to liberally construe the filings of incarcerated pro se litigants).
Relying on the United States Supreme Court’s decision in Maninez v. Ryan, 566 U.S.
1 (2012), Faison argues that any procedural default should be excused on the basis of his
PCRA Counsel’s ineffectiveness. (Doc. 20, at 18). In Martinez, the Supreme Court recognized
that, under certain circumstances, the procedural default of an ineffective assistance of trial
counsel claim may be excused where the default was caused, in turn, by ineffective assistance
of counsel, or by lack of having counsel, in initial post-conviction collateral
proceedings. See Martinez v. Ryan, 566 U.S. 1, 8—18 (2012). Specifically, the Supreme Court
held that:
Where, under state law, claims of ineffective assistance of trial counsel must be
raised in an initial-review collateral proceeding, a procedural default will not
18 To show “cause,” a petitioner must establish “that some objective factor external to
the defense impeded [the petitioner's] efforts to comply with the State's procedural
rule.” Murray v. Canier, 477 U.S. 478, 488 (1986).
19 A petitioner satisfies the “prejudice” prong by showing that the proceeding was
“unreliable or ... fundamentally unfair” because of a violation of federal law I9 Lockhart v.
Fretwell, 506 U.S. 364, 372 (1993).
20 In order to demonstrate a “fundamental miscarriage of justice,” a petitioner must
present new evidence to show “that constitutional error has resulted in the conviction of one
who is actually innocent of the crime.” Schlup v. Delo, 513 U.S. 298, 324 (1995).
18

bar a federal habeas court from hearing a substantial claim of ineffective
assistance at trial if, in the [state] initial-review collateral proceeding, there was
no counsel or counsel in that proceeding was ineffective.
Martinez, 566 U.S. at 17.
For Martinez to apply, Faison must show that his ineffective assistance of trial counsel
claim has ‘some merit,’ and that he had ineffective counsel or no counsel at the initial-review
stage of the state collateral proceeding.21 See Workman v. Superintendent Albion SCI, 915 F.3d
928, 937 (3d Cir. 2019). Faison’s state-appointed attorney at the initial-review stage of PCRA
proceedings withdrew pursuant to Finley and filed with the court a letter of no-merit. The
Third Circuit has held that a Martinez inquiry “focuses on whether counsel, not the prisoner,
raised the ineffective assistance of counsel claim at the initial review collateral proceeding.
Mack v. Superintendent Mahanoy SCI, 714 F. App’x 151, 153 (3d Cir. 201/) (emphasis in
original). In Mack, the court also held that where a petitioner fails to raise an ineffective
assistance of counsel claim in responding to a letter of no-merit, the claim may still be excused
by Martinez “if PCRA counsel was ineffective for filing a no-merit letter and not raising [the
petitioner’s] ineffective assistance claim.” Mack, 714 F. App’x at 154. Therefore, if Faison’s
PCRA counsel was ineffective for not raising this claim of ineffective trial counsel in his no­
merit letter, and if Faison’s ineffective assistance of trial counsel claim is ‘substantial,’ or has
‘some merit,’ then Martinez would apply, and Faison could go on with the claim. See
Workman, 915 F.3d at 937. The Court will examine the merit of Faison’s ineffective assistance

21 It is also required that state law mandates ineffective assistance of trial counsel claims
be raised only in collateral proceedings, which Pennsylvania state law does. See Martinez, 566
U.S. at 17; see also Commonwealth v. Grant, 813 A.2d 726 (Pa. 2002).
19

of trial counsel claim first, and then, if merit is found, determine whether PCRA counsel was
ineffective for not raising that claim in his no-merit letter.
To demonstrate that a claim has some merit, a petitioner must “show that reasonable
jurists could debate whether (or, for that matter, agree that) the petition should have been
resolved in a different manner or that the issues presented were adequate to deserve
encouragement to proceed further.” Workman, 915 F,3d at 938 (quotation omitted).
Therefore, Faison’s claim that his trial counsel was ineffective for failing to file a motion to
suppress evidence obtained from the warrantless re-entry of Simpson’s home must have
enough merit such that reasonable jurists could encourage it to proceed. See Workman, 915
F.3d at 938. The Court finds that it does not.
To attack the legality of a search of an apartment, and the ensuing collection of
evidence, an individual must have a reasonable expectation of privacy in that apartment.
Commonwealth v. Bostick, 958 A.2d 543, 552 (Pa. Super. Ct. 2008). As an overnight guest of
Simpson’s, Faison initially enjoyed such reasonable expectation of privacy. See Minnesota v.
Olson, 495 U.S. 91, 98 (1990) (holding that overnight houseguests have a legitimate
expectation of privacy in their hosts’ home). That reasonable expectation of privacy, though,
dissolved when Faison fled the apartment and was subsequently arrested. See United States v.
Harris, 884 F.Supp.2d 383, 390 n. 5 (W.D. Pa. 2012) (explaining that a Defendant did not
have standing to challenge the search of a home where he was an overnight guest because he
was not present when the search was conducted due to being detained) (citing United States v.
Pettiway, 429 F. App’x 132, 135 (3d Cir. 2011)). Because police performed the search in
question after Faison had left the apartment and had been arrested, thus when he no longer
possessed a reasonable expectation of privacy, Faison’s claim that trial counsel was ineffective
20

for not filing a motion to suppress evidence obtained from the search lacks any merit and
Martinez does not allow Faison to escape procedural default.
Therefore, it is recommended that Faison’s fourth ground for relief, that his trial
counsel was ineffective for not filing a motion to suppress evidence obtained when police re­
entered the apartment after performing the protective sweep, insofar as Faison asserts it as a
separate claim from his other ineffectiveness claims, be DISMISSED as procedurally
defaulted, without justifiable cause to excuse such procedural default.
C. Claims on the Merits22
It is not disputed that Faison’s remaining claims were properly exhausted, and thus
warrant consideration on the merits. In those grounds, Faison argues that his Sixth
Amendment right to effective counsel was violated because of his trial counsel’s failure to file
motions to suppress (1) evidence of Faison’s cell phone data, (2) evidence obtained when
police entered Simpson’s apartment without a search warrant and performed a protective
sweep, and (3) the affidavit of probable cause in support of the search warrant on Simpson’s
apartment. (Doc. 1).
“Under Strickland, courts are precluded from finding that counsel was ineffective
unless they find both that counsel’s performance fell below an objectively unreasonable

22 As noted above, Faison included a fifth ground for relief in his Petition, written on
the back of the petition (Doc. 1-1), and inadvertently not scanned into ECF when the Petition
was originally filed. This claim was that trial counsel was ineffective for not consulting with
Faison about filing the motions to suppress evidence which are addressed herein. As discussed
infra, the Court finds that these motions to suppress would have been meritless, therefore trial
counsel cannot be found ineffective for failing to pursue them. See Hartey v. Vaughn, 186 F.3d
367, 372 (3d Cir. 1999) (explaining that counsel cannot be deemed ineffective for not pursuing
a meritless claim). Accordingly, the Court respectfully recommends this claim be
DISMISSED.
21

standard, and that the defendant was prejudiced by that performance.” Marshall v. Hendricks,
307 F.3d 36, 85 (3d Cir. 2002). For a petitioner to claim ineffective assistance of counsel under
the PCRA he or she must show that “(1) the underlying claim is of arguable merit; (2)
counsel's course of conduct was without a reasonable basis designed to effectuate his client’s
interest; and (3) he was prejudiced by counsel’s ineffectiveness.” Commonwealth v. Timchak,
69 A.3d 765, 769 (Pa. Super. 2013). A review of counsel’s performance must be “highly
deferential,” as the petitioner has the burden of overcoming the strong presumption that his
counsel’s conduct fell “within the wide range of reasonable professional assistance” and that
counsel “made all significant decisions in the exercise of reasonable professional judgment.”
Strickland, 466 U.S. at 689-90. Even if a petitioner demonstrates that his attorney’s
performance fell below prevailing professional norms, habeas relief will only be available if
the petitioner further demonstrates that this deficient performance prejudiced his defense.
Strickland, 466 U.S. at 691-92. To demonstrate that he was prejudiced by counsel’s ineffective
performance, a petitioner “must show that there is a reasonable probability that, but for the
counsel’s unprofessional errors, the result of the proceeding would have been different.
Strickland, 466 U.S. at 694. Courts properly deny an ineffective assistance of counsel claim
upon determining that a petitioner fails to make a sufficient showing under either the
performance component or the prejudice component of the Strickland two-part test.
Strickland, 466 U.S. at 697.
Accordingly, under the deferential standard mandated by 28 U.S.C. § 2254(d)(1), the
Court may only grant Faison habeas relief upon finding that the state court decisions involved
an unreasonable application of Strickland. Further, because Faison’s ineffective assistance of
counsel claims were adjudicated on the merits in state court, this Court’s “review is doubly
22

deferential:’ the state PCRA court was obligated to conduct deferential review of Faison’s
trial counsel's performance and [this Court] must give deference to the state PCRA court
rulings under AEDPA.” Showers v. Beard, 635 F.3d 625, 629 (3d Cir. 2011).
1.

Ground One (Probable Cause to Collect Cell Phone Data')

In his first ground for relief, Faison argues that his trial counsel was ineffective in
failing to file a motion to suppress evidence obtained from a ‘trap and trace device.’ (Doc. 1).
Specifically, he argues that the warrant establishing probable cause to authorize disclosure of
tracking data on his cell phone number was insufficient as a matter of law, and that without
the tracking data police would not have arrived at Simpson’s apartment where Faison, and
the drugs, were found. (Doc. 1). He claims that the Pennsylvania Superior Court, acting under
the PCRA, unreasonably applied Illinois v. Gates, 462 U.S. 213 (1983) in determining that the
averments in the affidavit of probable cause provided enough bases for the issuing court to
conclude that probable cause existed to support the authorization of the warrant. (Doc. 20, at
12).
In support of his claim, Faison first points to the fact that the affidavit does not
establish the credibility nor reliability of Steven Williams, the parolee, who disclosed Faison’s
telephone number to the parole agent, nor that the information obtained from Williams was
corroborated. (Doc. 20, at 13). Without establishing Williams as a reliable source, the affidavit
lacked sufficient information to establish probable cause for a warrant. (Doc. 20, at 13).
Second, Faison states that, because Williams gave the parole agent the phone number, who
then gave it to the affiant, the affidavit contained uncorroborated double hearsay rendering it
unreliable. (Doc. 20, at 13).

23

Respondent contends that the Pennsylvania Superior Court’s determination was not
contrary to Gates, and that Gates was not unreasonably applied to the facts of this case. (Doc.
19, at 11). The Pennsylvania Superior Court, in examining the affidavit in support of probable
cause noted that the parolee who supplied the number was “specifically identified and known
to law enforcement, and could be held accountable for false information provided,” and also
that the affidavit provided the name of the parole agent, the date and time of the interview
between the parole agent and the parolee, and stated that the parolee informed the agent that
Faison was in the area and using the street name of ‘Mike’ which was similar to the name
Mickey’ Faison had used during controlled buys that had been conducted. (Doc. 19-2, at 73).
The Superior Court, citing Gates, determined that the totality of the circumstances provided a
substantial basis for the issuing court to conclude that probable cause existed to support
authorizing disclosure of the cell phone data, and that a motion to suppress on that basis
would have lacked merit. (Doc. 19-2, at 73).
Under Gates, probable cause determinations must be made according to the totality of
the circumstances. Gates, 462 U.S. at 238. If the circumstances, “including the veracity and
‘basis of knowledge’ of persons supplying hearsay information,” establish a fair probability
that evidence of a crime will be found in a particular place, then probable cause is established.
Gates, 462 U.S. at 238. The Court makes clear that an affidavit relying on hearsay is sufficient,
as long as a “substantial basis for crediting the hearsay is presented.” Gates, 462 U.S. at 238
(quotation omitted).
In Gates, the court issuing the warrant relied on an anonymous letter in establishing
probable cause. Gates, 462 U.S. at 245. The letter could be relied uponbecause the information
within, describing the defendants’ travel plans, could be corroborated. Gates, 462 U.S. at 245.
24

Here, it was not unreasonable for the Superior Court to conclude that the information
provided by the parolee could be, and was, corroborated. The parolee communicated that the
number belonged to Faison, who was in town, and going by the street name ‘Mike.’ (Doc.
19-2, at 73) The affiant had direct knowledge from controlled buys that Faison had used the
street name ‘Mickey.’ (Doc. 19-2, at 73). Further, while the letter supporting probable cause
in Gates was anonymous, probable cause in this case was established by a parolee whose
identity was known to police and who could be held accountable for incorrect information.
(Doc. 19-2, at 73). Given these facts, the Superior Court acting under the PCRA did not
unreasonably determine that there was a substantial basis for the issuing court to conclude
that probable cause existed, and that a motion to suppress on that basis would have lacked
merit.
Given that Faison’s underlying claim is not of arguable merit, the undersigned finds
that the state court did not unreasonably apply Strickland. Therefore, the Court recommends
that Faison’s claim alleging ineffective assistance of counsel for failing to move to suppress
evidence obtained as a result of the search of Faison’s cell phone data (ground one) be
DISMISSED for lack of merit.
2.

Ground Two ("Warrantless Entry of Simpson's Apartment-)23

Next, Faison argues that his trial counsel was ineffective in failing to file a motion to
suppress evidence obtained when police entered Simpson’s apartment with only an arrest

23 The Court notes that, as discussed supra, Faison abandoned his reasonable
expectation of privacy in the apartment when he fled before police entered. The Superior
Court, on PCRA appeal, did not address this issue and performed its analysis as if Faison
kept an expectation of privacy. The Court now examines whether the Superior Court’s
analysis is in accordance with Federal law.
25

warrant for Faison, and not a search warrant. (Doc. 1, at 7). Specifically, Faison claims that
police had ample time to obtain a search warrant, and that approaching the apartment and
knocking on the door without a search warrant created exigent circumstances. (Doc. 20, at
15-16). Faison argues that “the Third Circuit has declared it illegal for officers to execute an
arrest warrant on a third party’s residence without first obtaining a search warrant based on
their belief that the suspect may be a guest there.” (Doc. 20, at 15). Faison goes on to argue
that officers cannot cite exigent circumstances as grounds for warrantless entry when those
circumstances are of their own creation. (Doc. 20, at 15-16).
Respondent argues that Faison lacked sufficient contact with Simpson, and Simpson’s
apartment, to afford him a reasonable expectation of privacy. (Doc. 19, at 11). In support,
Respondent states that, “while the defendant had spent the night at the apartment on prior
occasions, Mr. Simpson had not seen the petitioner for a substantial period of time and had
only spoken to him on the phone three times in the past several months.” (Doc. 19, at 11).
Further, when Simpson’s front door was opened, an individual later identified as Faison
jumped out the window of the apartment and fled. (Doc. 19, at 12). In doing so, Respondent
asserts, Faison “abandoned any property he had and should be found to have no reasonable
expectation of privacy in any property he left behind in the third party residence.” (Doc. 19,
at 12).
On PCRA appeal, the Superior Court stated that police do not violate the privacy
rights of the subject of an arrest warrant when they enter the home of a third party without a
search warrant in order to execute the arrest warrant of an individual whom they have
reasonable belief is inside or is living there. (Doc. 19-2, at 73) (citing Commonwealth v. Muniz,
5 A.3d 345, 350-52 (Pa. Super. 2010). “Cell data had led [police] to that location, Colley told
26

Trooper Lombardo that Faison was in the second floor apartment, and Trooper Fishel saw
Faison standing outside a door of the apartment building.” (Doc. 19-2, at 73). These facts
not unreasonably, gave police reasonable belief that Faison was in the apartment. There was
nothing to suggest that the individual fleeing the apartment was Faison, therefore the police
had reason to believe Faison was still in the apartment and had the power to enter and execute
the arrest warrant. (Doc. 19-2, at 73). The Superior Court went on to find that Faison offered
no facts to contradict the PCRA court’s conclusion that officers performed a protective sweep
of Simpson’s apartment, rather than a full search. (Doc. 19-2, at 73).
The Superior Court’s decision, on PCRA appeal, was not contrary to clearly
established Federal law. In support of his claim, Faison submits that the Superior Court’s
decision was contrary to Steagaldv. United States, 451 U.S. 204 (1981) and that officers must
obtain a search warrant before entering a third party’s residence to effectuate an arrest
warrant. (Doc. 20, at 15). In Steagald, the Court stated that “the narrow issue before us is
whether an arrest warrant — as opposed to a search warrant — is adequate to protect the Fourth
Amendment interests of persons not named in the warrant, when their homes are searched
without their consent and in the absence of exigent circumstances.” The Court makes clear
that this case only addresses the rights of individuals who are not named in the arrest warrant.
Faison was named in the arrest warrant, therefore Steagald does not apply.24

24 The Fourth Amendment rights of an overnight guest who is the subject of an arrest
warrant are governed by Payton v. New York, 445 U.S. 573 (1980), which holds that police may
enter a home with only an arrest warrant if they have reason to believe the arrestee is within
the entered premises. United States v. Agnew, 407 F.3d 193, 196 (3d Cir. 2005); see United States
v. Bohannon, 824 F.3d 242, 250 (2d Cir. 2016).
27

Faison fails to identify any clearly established Federal law holding that officers acted
in violation of his Fourth Amendment rights as an overnight guest in entering Simpson’s
apartment when they did.25 Therefore, the Court does not find that the state court’s decision
was clearly contrary to, or an unreasonable application of, clearly established federal law. See
28 U.S.C. § 2254(d)(1); Showers v. Beard, 635 F.3d 625, 629 (3d Cir. 2011). Further, Faison
does not present clear and convincing evidence showing that police performed a full search
of Simpson’s apartment, rather than a protective sweep. The Superior Court, on PCRA
appeal, determined that police, not knowing who was in the apartment, ‘secured’ it for officer
safety. (Doc. 19-2, at 73). Faison does not present clear and convincing evidence that police
exceeded that scope. For these reasons, the Court respectfully recommends that Faison’s
claim that his trial counsel was ineffective for not attempting to suppress evidence obtained
when police entered Simpson’s apartment with only an arrest warrant (ground two) be
DISMISSED as without merit.
3.

Ground Three (False Averments in Arrest Warrant-)

In his third ground for relief, Faison argues that his trial counsel was ineffective for not
investigating and not filing to suppress the affidavit of probable cause in support of the warrant
for his arrest. (Doc. 1, at 9). Faison appears to allege that if trial counsel had investigated
Simpson, it would have been realized that the affidavit of probable cause contained false
averments and that the arrest warrant was invalid. (Doc. 1, at 9).

25 Faison also cites to United States v. Coles, 437 F.3d 361 (3d Cir. 2006), which
addresses the Fourth Amendment rights of an individual when police do not have an arrest
or search warrant. Police had a warrant for Faison’s arrest, therefore Coles does not apply.
28

The Superior Court, acting on PCRA appeal, indicates that it understood Faison’s
argument to be that he was challenging the averments contained in the affidavit of probable
cause in support of the search warrant of Simpson’s apartment. (Doc. 19-2, at 73). The court
found this claim to be without merit, as Faison failed to indicate how any material statements
in the affidavit supporting the search warrant were false. (Doc. 19-2, at 73).
The undersigned finds that the Superior Court did not reach an unreasonable
determination of the facts. In his petition and traverse, Faison does not submit any factual
support for his assertion that the affidavits of probable cause in support of the warrants search nor arrest - contained false averments, and he fails to allege what an investigation of
Simpson would have revealed. See (Doc. 1); (Doc. 20).
For these reasons, the Court recommends that Faison’s claim that his trial counsel was
ineffective for not attempting to investigate Simpson or suppress the affidavits of probable
cause (ground three) be DISMISSED as without merit.
IV.

Pending Motions
Also pending before the Court are two motions by Faison — a motion to compel

discovery (Doc. 7) and a motion for clarification/status of case (Doc. 8). The undersigned
having recommended that this petition be dismissed, these motions are now moot, and it is
recommended that they be denied as such. Further, Faison failed to file briefs in support of
either motion in accordance with Local Rule 7.5, which mandates that a brief in support of a
motion shall be filed within 14 days of filing of the motion or be deemed withdrawn.
V.

Recommendation
Based on the foregoing, it is recommended that Faison’s petition (Doc. 1) be DENIED

and DISMISSED WITH PREJUDICE. The Court further recommends against the issuance
29

of a certificate of appealability, as Faison has failed to demonstrate “a substantial showing of
the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); see also Miller-El v. Cockrell, 537
U.S. 322, 335-36 (2003); Slack v. McDaniel, 529 U.S. 473, 484 (2000). Finally, it is
recommended that the remaining motions pending in this matter be dismissed as moot.

JCaroline WeUckicL

Dated: October 31, 2019

KAROLINE MEHALCHICK
United States Magistrate Judge

30

